U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

February 5, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Demetrius Elishakim Jefferson v. United States, No. 20-6745
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 16,
2020. The government’s response is now due, after one extension, on March 3, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including April 2, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

cc:

See Attached Service List

Elizabeth B. Prelogar
Acting Solicitor General

20-6745
JEFFERSON, DEMETRIUS ELISHAKIM
USA

ADAM D. ZENOR
111 EAST GRAND AVENUE
SUITE 400
DES MOINES, IA 50309

